Report No. DODIG-2012-106                 June 27, 2012





    DoD Needs to Improve the Billing System for Health 

    Care Provided to Contractors at Medical Treatment 

               Facilities in Southwest Asia 

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by phone
(703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
DFAS                  Defense Finance and Accounting Service
DoDI                  Department of Defense Instruction
DoD OIG               Department of Defense Office of Inspector General
MTF                   Medical Treatment Facility
SPOT                  Synchronized Predeployment and Operational Tracker
TMDS                  Theater Medical Data Store
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and Logistics
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
USCENTCOM             U.S. Central Command
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE 

                                      4800 MARK CENTER DRIVE 

                                   ALEXANDRIA, VIRGIN IA 22350-1500 





                                                                                     June 27, 2012

MEMORANDUM FOR DISTRIBUTION

SUBJECT: DoD Needs to Improve the Billing System for Health Care Provided to Contractors
         at Medical Treatment Facilities in Southwest Asia (Report No. DODIG-2012-106)

We are providing this report for review and conunent. In April 2011, DoD implemented a
billing system for health care provided to contractor persmmel at medical treatment facilities in
Southwest Asia; however, the system needs improvement. We considered management
comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments from
the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer, DoD, were partially
responsive. We request that the Under Secretary conm1ent on Reconunendations B.2.a and
B.2.b.i by July 27, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a portable document format (.pdf) file containing your comments to
audyorktown@dodig.mil. Copies of your conm1ents must have the actual signature of the
authorizing official for your orgai1ization. We are unable to accept the /Signed/ symbol in place
of the actual signature. Ifyou arrange to send classified conunents electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604­
8866 (DSN 664-8866).




                                              Alice F. Carey
                                              Assistant Inspector General
                                              Readiness, Operations, and Support
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
COMMANDER, U.S. CENTRAL COMMAND
ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
Report No. DODIG-2012-106 (Project No. D2011-D000LF-0041.000)                                 June 27, 2012


               Results in Brief: DoD Needs to Improve the Billing
               System for Health Care Provided to Contractors at
               Medical Treatment Facilities in Southwest Asia


What We Did                                              process, it is likely that DFAS will continue to
                                                         underbill.
The previous Commander, U.S. Central
Command, requested this audit. Our objective             What We Recommend
was to follow up on the Department of Defense
                                                         We recommend that the Under Secretary of
Office of Inspector General Report No.
                                                         Defense (Comptroller)/Chief Financial Officer,
D-2009-078, “Health Care Provided by Military
                                                         DoD, chair a meeting with the Under Secretary
Treatment Facilities to Contractors in Southwest
                                                         of Defense for Acquisition, Technology, and
Asia,” May 4, 2009.
                                                         Logistics and the Under Secretary of Defense
                                                         for Personnel and Readiness to assign a DoD
What We Found                                            functional proponent for billing contractors for
In April 2011, DoD began billing contractors for         health care.
health care provided in Southwest Asia;
however, improvements to the billing system              We recommend that the Under Secretary of
are needed. DoD officials took more than                 Defense (Comptroller)/Chief Financial Officer,
5 years from the issuance of DoD guidance that           DoD, in coordination with the DoD working
required contractor reimbursement for health             group and the proponent, establish controls to
care to develop and implement a billing system.          correct the problems that we identified; review
This occurred because the working group                  the current billing system for accuracy; and bill
designated the Defense Finance and Accounting            for health care provided to contractor personnel
Service (DFAS) to perform billing, but the               before February 2011 and amounts underbilled
group did not assign a functional proponent to           in 2011.
oversee the billing system. As a result, DoD did
not bill contractors for at least $8.1 million in        Management Comments and
health care expenses for FY 2010. This                   Our Response
estimate does not include missed opportunities
to bill contractors for health care between              Comments from the Deputy Comptroller for
FY 2006, when DoD issued guidance, and                   Program/Budget were responsive or partially
FY 2009.                                                 responsive to the recommendations. DFAS
                                                         billed for health care provided to contractor
Also, DoD Components experienced data                    personnel before February 2011. Comments
reliability problems that affected the accuracy of       from the Assistant Secretary of Defense for
the bills, totaling $84,116, for contractor health       Logistics and Materiel Readiness and the Chief
care provided in February 2011. This occurred            Financial Officer for the Assistant Secretary of
because the DoD working group decided to use             Defense (Health Affairs) were responsive.
two nonfinancial databases that were not
intended for billing and staff at medical                We request the Under Secretary of Defense
treatment facilities in Southwest Asia and               (Comptroller)/Chief Financial Officer, DoD,
contractor personnel made data input errors. As          provide additional comments on the final report
a result, DoD underbilled contractors for health         by July 27, 2012. Please see the
care provided in February 2011 by at least               recommendations table on the back of this page.
$128,850. Without improvements to the billing
                                                     i
Recommendations Table 


       Management               Recommendations Requiring   No Additional Comments
                                Comment                     Required

Under Secretary of Defense                                  A.1, B.1
for Acquisition, Technology,
and Logistics
Under Secretary of Defense      B.2.a, B.2.b.i              A.1, A.2, B.2.b.ii, B.2.c,
(Comptroller)/Chief Financial                               B.2.d
Officer, DoD
Under Secretary of Defense                                  A.1
for Personnel and Readiness
Assistant Secretary of                                      B.3.a, B.3.b
Defense (Health Affairs)

Please provide comments by July 27, 2012.




                                                 ii
Table of Contents

Introduction	                                                                       1    


      Objective                                                                    1

      Background                                                                   1     

      Review of Internal Controls                                                  3


Finding A. DoD Delayed Billing Contractors for Health Care Provided in 

Southwest Asia                                                                      4


      DoD Officials Took More Than 5 Years to Develop and Implement a 

          System for Billing Contractors                                           4

      A DoD Functional Proponent to Oversee the Billing System Is Needed           5

      Estimate of Claims Not Billed for Health Care Provided to Contractors in

          Southwest Asia                                                            6

      Recommendations, Management Comments, and Our Response                        6


Finding B. Billing System for Health Care Provided to Contractors in Southwest 

Asia Needs Improvement                                                           9


      Data Reliability Problems With Billing System Occurred                       9

      Use of Databases That Were Not Intended for Billing and Data Input Errors 

        Led to Reliability Problems                                               13 

      Revisions Needed to Improve Billing Accuracy                                15 

      Recommendations, Management Comments, and Our Response                      15 


Appendices

      A. 	Scope and Methodology                                                   19 

             Computer-Processed Data                                              20 

             Use of Technical Assistance                                          21 

             Prior Coverage                                                       21     

      B. Audit Request 	                                                          22 

      C. Statistical Sample 	                                                     23 

      D. Summary of Potential Monetary Benefits 	                                 27 


Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics       28 

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD       30 

      Assistant Secretary of Defense (Health Affairs)                             34 

Introduction
Objective
Our objective was to follow up on the Department of Defense Office of Inspector General
(DoD OIG) Report No. D-2009-078, “Health Care Provided by Military Treatment
Facilities to Contractors in Southwest Asia,” May 4, 2009. Specifically, we reviewed the
status of billing contractors for health care provided at medical treatment facilities
(MTFs) in Southwest Asia. See Appendix A for the scope and methodology. The
previous Commander, U.S. Central Command (USCENTCOM), requested this audit (see
Appendix B).

Background
The U.S. Government used thousands of contractor personnel in USCENTCOM’s area of
responsibility. Contractor personnel performed a variety of contracted services, such as
base support, security, training, construction, interpreter, and transportation. At times,
contractor personnel in Southwest Asia required medical services provided at DoD’s
MTFs.                                               Figure 1. Entrance to Main Hospital in
                                                                Kandahar, Afghanistan
Public Law 107-107, “National
Defense Authorization Act For
Fiscal Year 2002,” Section 1079b,
“Procedures for Charging Fees for Care
Provided to Civilians; Retention and
Use of Fees Collected,” December 28,
2001, requires the Secretary of Defense
to implement procedures so that an
MTF may charge civilians who are not
covered beneficiaries or their insurers
for the cost of health care. Public Law
107-107 allows the MTF to retain and
use the fees collected.
                                                        Source: DoD OIG auditor, February 9, 2011
DoD Instruction (DoDI) 3020.41, “Contractor Personnel Authorized to Accompany the
U.S. Armed Forces,” October 3, 2005,1 states that DoD may provide resuscitative care,
stabilization, hospitalization, and assistance with patient movement in emergencies where
loss of life, limb, or eyesight could occur. Primary medical or dental care is not
authorized, and contractor personnel may not receive these services at MTFs unless
specifically authorized under the terms of the contract and noted on the letter of
authorization. All costs associated with medical care are reimbursable to the U.S.


1
 On December 20, 2011, the Acting Under Secretary of Defense for Acquisition, Technology, and
Logistics reissued DoDI 3020.41 with the title, “Operational Contract Support (OCS).” However, the
policy for contractor personnel receiving reimbursable health care from MTFs did not change.

                                                   1

Government and are the responsibility of the contractor personnel, their employers, or
their health insurance providers.

In July 2006, USCENTCOM issued Fragmentary Order 09-1038, “Contractor Care in the
USCENTCOM AOR [Area of Responsibility],” which established guidance in
accordance with DoDI 3020.41. The fragmentary order states, “USCENTCOM will
work with the Joint Staff and OSD [Office of the Secretary of Defense] to establish a
billing mechanism utilizing the OSD established outpatient and inpatient rates for
contingency operations as a basis for billing.”

On January 4, 2007, the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD (USD[C]/CFO), issued a memorandum establishing medical billing rates
for contractor personnel deployed with U.S. Armed Forces. This and subsequent
memorandums require the contractor to provide a letter of authorization from the
contracting officer that states the level of health care authorized and the entity responsible
for payment of the bill. USD(C)/CFO personnel revised the medical billing rates on
June 16, 2008; September 1, 2009; December 30, 2010; and March 29, 2012.
                                            Figure 2. DoD Medical Personnel Providing Care
On September 15, 2010,                              in Kandahar, Afghanistan
USCENTCOM personnel issued an
update to their Fragmentary
Order 09-1038, stating that contractor
personnel must be registered correctly
in the electronic medical record to
facilitate reimbursement from the
contractor. The update states that
billing for care provided to contractor
personnel is not the responsibility of
the medics in Southwest Asia and
will be accomplished outside of the             Source: U.S. Navy, December 20, 2010
USCENTCOM area of responsibility.
The update does not provide any other details on how contractor billing will occur.

Previous Report Identified Need to Bill Contractors for
Health Care
DoD OIG Report No. D-2009-078 identified that MTFs were not billing contractors for
health care provided. In November 2008, DoD officials from various organizations
established a working group, which was chaired by the USD(C)/CFO, to discuss how to
implement a billing system in contingency operations like Iraq and Afghanistan. In the
report, we recommended that the USD(C)/CFO continue to chair the working group with
officials from the Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]); USCENTCOM; the Assistant Secretary of Defense (Health Affairs)
(ASD[HA]); the Defense Finance and Accounting Service (DFAS); the Joint Staff; and
the Military Departments. As part of our recommendation, we stated that the working



                                              2

group should, at a minimum, designate a DoD functional proponent2 for this issue;
establish clearly defined roles and responsibilities for implementing a billing system; and
determine which DoD Component would perform the billing. On April 2, 2009, the
USD(C)/CFO agreed with our recommendation to continue to chair the working group
and seek a solution for this billing challenge.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to establish a management internal control
program to identify and promptly correct ineffective internal controls and establish
internal controls when warranted. Although DoD implemented a billing system in
April 2011, DoD did not implement a system that accurately billed contractors for health
care provided at MTFs in Southwest Asia. See Finding B for details of the internal
control weakness. We will provide a copy of the report to the senior official responsible
for internal controls in the USD(AT&L), USD(C)/CFO, and ASD(HA).




2
 DoDI 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010, defines a DoD
functional proponent as a DoD staff principal responsible for policy and oversight of a particular functional
area.

                                                      3

Finding A. DoD Delayed Billing Contractors
for Health Care Provided in Southwest Asia
DoD officials took more than 5 years from the issuance of DoD guidance that required
contractor reimbursement for health care to develop and implement a billing system.
This occurred because the working group (officials from the USD[C]/CFO, the
USD[AT&L], USCENTCOM, the ASD[HA], DFAS, the Joint Staff, and the Military
Departments) designated DFAS to perform billing, but the group did not assign a
functional proponent to oversee the billing system. As a result, DoD did not bill
contractors for at least $8.1 million in health care expenses for FY 2010. This estimate
does not include missed opportunities to bill contractors for health care between
FY 2006, when DoD issued guidance, and FY 2009.3

DoD Officials Took More Than 5 Years to Develop and
Implement a System for Billing Contractors
In October 2005, DoD issued DoDI 3020.41, which states that all costs associated with
treatment of contingency contractors are reimbursable to the Government; however, DoD
officials took 5 years and 6 months to implement a billing system. DoD OIG Report
No. D-2009-078 acknowledged that more than 3 years after the DoDI was issued, DoD
did not bill contractors for health care provided in Southwest Asia and recommended that
DoD implement a billing system that was practical for USCENTCOM. However, the
DoD working group, established in November 2008, took 29 months to implement a
billing system. On April 29, 2011, DoD began billing for health care provided by MTFs
to contractors in Southwest Asia during February 2011.

The working group (established during our initial audit) began meeting in
November 2008 to develop a concept for billing contractors. An official from
USD(C)/CFO provided brief summaries of each action taken by the working group since
October 20, 2009. According to the working group summaries, most of the group’s
interactions were between various officials from the USD(C)/CFO and DFAS. However,
on May 20, 2010, one working group meeting included senior officials from the offices
of the USD(C)/CFO, the ASD(HA), the Assistant Secretary of the Air Force (Financial
Management and Comptroller), the Assistant Secretary of the Army (Financial
Management and Comptroller), Air Force Surgeon General, and the Joint Staff Surgeon.
The group held this meeting to provide an overview of a billing concept.

The working group asked the Military Departments to provide their position on the
billing concept. The Military Departments recommended that DFAS institute a process
on their behalf. The USD(C)/CFO verbally approved the billing concept on
September 29, 2010, according to the summaries of the working group actions. In the
spring of 2011, officials from the Deputy Assistant Secretary of Air Force (Budget), the
Assistant Secretary of Navy (Financial Management and Comptroller), and the U.S.


3
    Please refer to Appendix C for details on statistical projections.

                                                         4

Army Financial Management Command signed memorandums of agreement with DFAS
and authorized DFAS to bill on their behalf. However, the working group did not assign,
and no one accepted responsibility as, the DoD functional proponent for overseeing the
billing system.

A DoD Functional Proponent to Oversee the Billing
System Is Needed
The delay in implementing a billing system occurred because the DoD working group did
not designate a DoD functional proponent with defined roles and responsibilities to
oversee the system for billing contractors. When we asked a USD(C)/CFO official in
January 2011 which senior DoD official within OSD was principally responsible, the
official told us that this issue was still open. On March 30, 2011, a USD(AT&L) official
                                             stated that responsibilities for establishing a
    As a result, no DoD Component            billing system for contractor health care
   made it a priority to implement a         provided in a contingency operation would be
   billing system in a timely manner.        addressed in an updated version of
                                             DoDI 3020.41. On May 6, 2011, an official
from the Uniform Business Office, a department within ASD(HA), stated that other than
assisting the USD(C)/CFO in developing billing rates, ASD(HA) was not responsible for
developing policy for “non-fixed facilities,” which they consider all the MTFs in
Southwest Asia to be. Consequently, no DoD Component had officially accepted
responsibility for overseeing a contractor health care billing system in Southwest Asia.
As a result, no DoD Component made it a priority to implement a billing system in a
timely manner.

On December 20, 2011, USD(AT&L) reissued DoDI 3020.41. The reissued DoDI
assigns the USD(C)/CFO with the responsibility for developing policy addressing the
reimbursement of funds for health care provided to contractors in contingency operations.
However, the Instruction does not assign specific roles and responsibilities for oversight
of the billing process.

Because neither the DoD working group nor the reissued DoDI 3020.41 assign a DoD
functional proponent responsible for oversight, we are elevating this issue to the Under
Secretary level. The USD(C)/CFO should chair a meeting with the USD(AT&L) and the
Under Secretary of Defense for Personnel and Readiness (USD[P&R])4 to select a DoD
functional proponent responsible for oversight of the system established for billing for
health care provided to contractor personnel authorized to accompany U.S. Armed Forces
in contingency operations.




4
    The ASD(HA) reports directly to the USD(P&R).

                                                    5

Estimate of Claims Not Billed for Health Care Provided
to Contractors in Southwest Asia
MTFs in Southwest Asia provided care to contractors through January 2011 without
seeking reimbursement. On January 6, 2012, a USD(C)/CFO official stated that DFAS
   We estimate DoD did not bill contractors     planned to bill for contractor health care
    for at least $8.1 million in health care    provided in Southwest Asia before
             expenses for FY 2010.              February 2011. We estimate DoD did
                                                not bill contractors for at least
$8.1 million in health care expenses for FY 2010.5 DoD should bill contractors that
received health care before February 2011. Billing for health care provided by MTFs to
contractors would provide additional resources to support the troops.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, chair a meeting with the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense for
Personnel and Readiness to select a DoD functional proponent responsible for
overseeing the billing system for health care provided to contractor personnel
authorized to accompany U.S. Armed Forces in contingency operations.

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments
The Deputy Comptroller for Program/Budget provided comments for USD(C)/CFO. He
partially agreed and stated that the DoD working group planned to assign oversight
responsibilities at DoD’s upcoming Program and Budget Review. Further, he stated that
DFAS continued to serve as the functional proponent for DoD accounting and billing
functions.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Assistant Secretary of Defense (Logistics and Materiel Readiness) provided
comments for USD(AT&L). He agreed and stated that a single DoD Component for
overseeing the billing process was necessary and that DFAS was serving as the functional
proponent for accounting and billing functions. Further, he stated that the DoD working
group would continue to review roles and responsibilities associated with the medical
billing system process for in-theater health care provided to contractor personnel and
would assign specific oversight responsibilities to the most appropriate DoD Component.




5
  See Appendix C, “Estimate of Claims Not Billed for Contractor Health Care,” for more details on our
interpretation of the statistical projection for FY 2010. This estimate does not include billings before and
after FY 2010.

                                                      6

Under Secretary of Defense for Personnel and
Readiness Comments
The Chief Financial Officer for ASD(HA) provided comments for USD(P&R). He
agreed and stated that the working group planned to assign oversight responsibilities at
the upcoming Program and Budget Review.

Our Response
Comments from the Assistant Secretary of Defense (Logistics and Materiel Readiness);
Deputy Comptroller; and Chief Financial Officer, ASD(HA), were responsive, pending
the assignment of specific responsibilities for oversight of the billing process during the
upcoming Program and Budget Review. If the working group does not designate a DoD
functional proponent during the upcoming Program and Budget Review, we will elevate
this decision to the Under Secretary of Defense level. At this time, we do not require
additional comments.

A.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, in coordination with the proponent selected in response to
Recommendation A.1., bill contractors for health care provided in Southwest Asia
before February 2011.

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments
The Deputy Comptroller agreed and stated that DFAS has billed for health care
encounters as far back as FY 2007 and continued to address data reliability programs for
additional billings. DFAS was continuing to work with USD(AT&L) and ASD(HA)
officials to improve the billing process. Specifically, the Deputy Comptroller stated that
changes were “made to improve the Synchronized Predeployment and Operational
Tracker (SPOT) query process by 10 percent to include identifying contracts whether or
not they have a task order associated with them; running queries on all active, open or
closed SPOT deployments; and opening up the query to include Social Security Number
(SSN, Last Name/First Name, and Date of Birth).”
However, the Deputy Comptroller disagreed with our estimate of at least $8.1 million in
health care expenses for FY 2010. He stated that DFAS had billed $4.2 million in
FY 2010 contractor health care encounters and that DFAS continued to review data to
determine whether additional billings were required.”

Our Response
Although the Deputy Comptroller disagreed with our estimate of $8.1 million, we
consider his comments responsive because DFAS implemented the recommendation to
bill for prior years. On May 24, 2012, a DFAS official provided us documentation that
DFAS had billed $13.7 million for health care going back to FY 2007. The difference
between our estimate and the amount the Deputy Comptroller stated DFAS billed for
FY 2010 may be attributed to several factors. Our $8.1 million estimate for contractor
health care expenses was based on a statistical projection and included additional audit

                                             7

work to resolve data integrity issues discussed in Finding B. Based on ASD(HA)
comments to Recommendation B.3 we conclude that DFAS did not bill for all FY 2010
contractor medical encounters because they are continuing to address these issues for
additional billings. Therefore, no additional comments were required.

We commend USD(C)/CFO and DFAS personnel for aggressively pursuing the
reimbursement of health care provided by MTFs to contractors in Southwest Asia.
Because improvements continue to be made to the billing process, the amount billed will
likely continue to increase.




                                           8

Finding B. Billing System for Health Care
Provided to Contractors in Southwest Asia
Needs Improvement
DoD Components experienced data reliability problems that affected the accuracy of the
bills, totaling $84,116, for contractor health care provided in February 2011. This
occurred because the DoD working group decided to use two nonfinancial databases that
were not intended for billing and staff at MTFs in Southwest Asia and contractor
personnel made data input errors. As a result, DoD underbilled contractors for health
care provided in February 2011 by at least $128,850. Without improvements to the
billing process, it is likely that DFAS will continue to underbill.

Data Reliability Problems With Billing System Occurred
Our review of the billing system before its implementation identified problems with data
reliability. Although DFAS personnel attempted to correct the problems within their
control before implementing the system, the billings for February 2011 showed that not
all problems were fixed and that additional problems occurred.

According to DFAS officials, DoD’s billing system relied on two databases: the Theater
Medical Data Store (TMDS)6 managed by the ASD(HA), for identifying health care
provided to contractors and the Synchronized Predeployment and Operational Tracker
(SPOT),7 managed by the USD(AT&L), for identifying the contractor organization’s
contract number. TMDS has a data field for identifying the patient as contractor
personnel. An official from ASD(HA) provided DFAS with a spreadsheet from TMDS
of patients who were recorded as contractor personnel. A DFAS official stated that
DFAS personnel would use spreadsheets from the SPOT database to identify the contract
number under which the contractor personnel worked, primarily by matching the
patient’s social security number in the two databases. Further, from the contract number,
DFAS personnel determined which contractor organization should be billed for the
employee’s medical treatment. Then, DFAS personnel billed the contractor organization
and sent funds collected to the Military Departments. However, several problems existed
concerning the reliability of the data that DFAS personnel used to bill contractors.

Problems With Data Reliability of Two Databases Chosen
In March 2011, before the implementation of the billing system, we identified data
reliability problems that could negatively affect billing contractors for health care for
FY 2010.


6
  TMDS serves as the Southwest Asia database for collecting, distributing, and viewing medical
information in theater. It provides one central location for health care providers to view Southwest Asia
medical data.
7
  SPOT is the Joint Enterprise contractor management and accountability system that provides a central
source of contingency contractor information. Contractor companies are required to maintain by name
accountability within SPOT while Government representatives use SPOT for oversight of the contractors
they deploy.

                                                     9

Specifically, the following reliability problems existed:

       	 3,499 or 28 percent of the medical encounters in the spreadsheet from TMDS had
          errors that could affect billing,

       	 11,019 contractor medical encounters were not included in the spreadsheet from
          TMDS, and

       	 5,285 or 45 percent of the medical encounters had missing and incomplete 

          contractor profiles in SPOT.8


On March 30, 2011, we shared our concerns regarding the data reliability of the two
databases with officials from the USD(AT&L), USD(C)/CFO, ASD(HA), the Military
Department Surgeons General, and DFAS. DFAS personnel stated they were developing
business rules for the billing system and requested that we review the business rules
before DFAS initiated the billing system.

On April 11, 2011, DFAS personnel provided updated business rules intended to address
the issues that we identified. We questioned whether the new rules would correct all of
the deficiencies; however, DFAS personnel did not provide feedback to our questions
before implementing the billing system. On April 29, 2011, DFAS personnel began
billing contractors for health care provided by MTFs in Southwest Asia. DFAS
personnel billed contractors $84,116 for 110 medical encounters that occurred during
February 2011.

DFAS Personnel Underbilled Contractors for Health Care
Provided in February 2011
DFAS personnel underbilled for health care provided to contractor personnel during
February 2011 by at least $128,850. Based on the billings, it appeared that DFAS
corrected some of the problems identified in our review before implementing the billing
system. However, problems still existed. See the table on the next page for the breakout
of the problems identified in the implemented billing system and the dollar value
underbilled.




8
    Please refer to Appendix C for details on statistical projections.

                                                         10 

 Table. Problems That Resulted in DFAS Underbilling Contractors for Health Care 

                              Provided in February 2011 

     Problems That Resulted in Underbilling               Amount Underbilled
Length of Stay Errors in the TMDS Spreadsheet                  $62,950
Contractor Medical Encounters Not Included in the
TMDS Spreadsheet                                                10,586
Missing and Incomplete Contractor Profiles in SPOT              33,838
Health Care Provided to Contractors Working Under
Non-DoD Contracts*                                              21,476
  Total                                                       $128,850
    * Although not a data reliability problem, we identified this issue during our review of the February 2011
    contractor medical encounters in Southwest Asia.

Length of Stay Errors in the TMDS Spreadsheet
DFAS personnel did not consistently bill the correct length of stay for the February 2011
inpatient medical encounters, which resulted in at least $62,950 in underbillings. The
TMDS spreadsheet that ASD(HA) provided to DFAS contained discharge date
discrepancies when matched with the patient’s electronic medical record. Of 26 inpatient
stays during February 2011, 22 did not have discharge dates recorded in the TMDS
spreadsheet. For those inpatient stays with no discharge date, DFAS personnel billed
11 encounters for only 1 day although the patients’ medical records indicated hospital
stays for multiple days. For example, DFAS personnel billed:

       	 a patient treated for an intestinal disorder for 1 day ($2,518); however, the bill
          should have been for 8 days ($20,144);

       	 a patient treated for inflammation of the gallbladder for 1 day ($2,518); however,
          the bill should have been for 4 days ($10,072); and

       	 a patient treated for a brain hemorrhage (non-battle-related) for 1 day ($2,518);
          however, the bill should have been for 6 days ($15,108).

Using the per diem rate of $2,518 per inpatient day, for these 11 inpatient stays, DFAS
personnel billed $27,698, but should have billed $90,648.

Contractor Medical Encounters Not in the TMDS Spreadsheet
The TMDS spreadsheet provided by ASD(HA) for contractor medical encounters during
February 2011 did not include some contractor medical encounters that resulted in at
least $10,586 in underbillings. An official from ASD(HA) provided DFAS with a TMDS
spreadsheet that contained medical encounters for three patient categories.9 The TMDS


9
 The TMDS spreadsheet contained medical encounters for patients recorded in the patient category as
“A03 [Contractor],” “K65 [Other beneficiaries of U.S. Govt. Contract Employee],” and “K99 [Patient not
elsewhere classified].”

                                                       11 

spreadsheet did not include medical encounters when the patient category was blank or
other potential contractor medical encounters that staff at the MTF did not record as
contractor encounters. Therefore, DoD missed opportunities to bill contractors—not
identified in TMDS as contractor personnel—who received health care at MTFs in
Southwest Asia in February 2011. For example,

   	 Staff at an MTF treated a patient for bronchitis. DFAS personnel should have
      billed $222 for one outpatient visit. The patient category in the medical record
      was “Army Retiree Length of Service” and the patient was not in the TMDS
      spreadsheet DFAS used for billing. However, this patient was also a contractor.

   	 Staff at an MTF treated a patient for joint pain and skin rash. DFAS personnel
      should have billed $444 for two outpatient visits. The patient category in the
      medical record was blank, and the patient was not in the TMDS spreadsheet
      DFAS used for billing. However, this patient was a contractor.

If staff at the MTFs did not select contractor as the patient category when recording
contractor medical encounters, then these encounters were not included in the TMDS
spreadsheet provided to DFAS for billing.

Missing and Incomplete Contractor Profiles in SPOT
DFAS personnel were not able to trace 145 of the 251 patients in the TMDS spreadsheet
to SPOT with a contract number for health care provided in February 2011. Of the
145 patients not traced to SPOT, 37 patients actually did have a contract number in
SPOT, but the SPOT spreadsheet used for billing did not include the contract number.
For example,

   	 DFAS personnel should have billed a patient admitted following a fall for 2 days
      ($5,036). Although the TMDS spreadsheet included the inpatient stay, the SPOT
      spreadsheet showed no profile. As a result, DFAS personnel could not bill for the
      medical care. On June 27, 2011, we queried the patient’s name in SPOT and
      found the patient’s SPOT profile and contract number.

   	 DFAS personnel should have billed a patient admitted for the treatment of a
      seizure for 1 day ($2,518). Although the TMDS spreadsheet included the
      inpatient stay, the SPOT spreadsheet showed no profile. As a result, DFAS
      personnel could not bill for the medical care. On May 20, 2011, we queried the
      patient’s name in SPOT and found the patient’s SPOT profile and contract
      number.

For the 37 patients that actually did have a contract number in SPOT, DFAS personnel
should have billed an additional $33,838 for health care provided in February 2011. Data
were not available in SPOT to bill the remaining 108 patients.




                                           12 

Health Care Provided to Contractors Working Under Non-
DoD Contracts
In addition to the data reliability issues, DFAS personnel did not bill nine medical
encounters for contractor personnel that were working under non-DoD contracts—U.S.
Department of State and General Services Administration contracts. For example,

      DFAS personnel should have         Figure 3. U.S. Air Force Doctor Providing Care in
       billed a patient admitted for                Bagram Air Base, Afghanistan
       the treatment of chest pain
       for 5 days ($12,590). The
       patient was working under a
       General Services
       Administration contract.

   	 DFAS personnel should have
      billed a patient admitted for
      the treatment of a gunshot
      wound to the finger for 1 day
      ($2,518). The patient was
      working under a U.S.
      Department of State contract.                Source: U.S. Air Force, March 9, 2007

Although DFAS personnel identified the contract numbers in SPOT for these patients as
non-DoD contracts, they did not bill for the health care provided. For the nine medical
encounters for contractor personnel that worked under non-DoD contracts, DFAS
personnel should have billed an additional $21,476. DFAS personnel did not bill
contractors that worked under non-DoD contracts because the DoD working group had
not developed procedures to bill other Federal entities for their contractors who used
MTFs.

Use of Databases That Were Not Intended for Billing and
Data Input Errors Led to Reliability Problems
The data reliability issues with the billing system occurred because the DoD working
group decided to use two databases, TMDS and SPOT, that were not intended for billing,
and because staff at MTFs in Southwest Asia and contractor personnel made data input
errors.

The primary purpose of TMDS is to collect, distribute, and view patient medical
information rather than to bill. The purpose of SPOT is to serve as a central repository to
track deployed contractor personnel supporting DoD military operations worldwide—
again, not intended to be used for billing. DoD personnel might correct some of the
database issues with simple fixes. For example, some of the TMDS electronic medical
records contained the admission and discharge dates for the patient, but the TMDS
spreadsheet used by DFAS personnel to bill contractors contained several medical


                                            13 

encounters that did not include a discharge date, resulting in underbilling the number of
days.

Other database issues may require simple changes to the TMDS and SPOT systems or
procedures to allow for identification and tracking of data not currently recorded. For
instance, patients without social security numbers were assigned pseudo-social security
numbers when they received treatment at an MTF in Southwest Asia, according to a
TMDS expert. The pseudo-social security number was the patient’s medical
identification number in TMDS, but would not have traced to SPOT. Therefore, DFAS
may not be able to bill contractor personnel without social security numbers for health
care.

Similarly, the selections available in the patient category field in TMDS produce
problems when used for billing. DoD staff did not always record a patient category in
TMDS for contractor personnel seen at the MTF—the patient category was left blank in
the electronic medical record. Also, DoD staff did not always choose contractor
personnel as the patient category when more than one patient category was applicable.
For example, some contractor personnel may have been retired U.S. military, which is an
acceptable patient category in the electronic medical record. However, if the patient was
also a contractor, but recorded as a U.S. military retiree, DFAS would not have billed the
contractor organization for the health care provided.

In addition to database issues, data input errors existed. For example,
                                                        Figure 4. An Aeromedical Evacuation at
   	 The DoD staff in Southwest Asia did not               Kandahar Airfield, Afghanistan
      always input the patient’s name, social
      security number, date of birth, or patient
      category correctly in the medical record,
      which could affect the ability to bill.

   	 The DoD staff in Southwest Asia did not 

      always input the exact date when the patient 

      was discharged from the MTF in Southwest 

      Asia and airlifted to Landstuhl Regional 

      Medical Center in Germany for additional 

      health care. This could cause DFAS to bill 

      the contractor’s organization incorrectly for 

      the length of stay. 


   	 Contractor personnel did not always input 

      all their applicable data into SPOT, which 

      would prevent DFAS from billing the

      contractor’s organization. 


                                                          Source: U.S. Air Force, January 5, 2011



                                            14 

Revisions Needed to Improve Billing Accuracy
If DoD continues billing using the current method, revisions are needed to improve data
accuracy and to ensure that DoD bills for all contractor medical encounters. The
USD(AT&L) should develop a quality control process to verify that contractor personnel
consistently include applicable contract numbers in SPOT, including non-DoD contracts.
Because of the wide range of problems affecting data integrity, the USD(C)/CFO, in
coordination with the billing proponent, should develop a quality control process to
improve the accuracy of data input into TMDS. The USD(C)/CFO should also closely
examine the system in place and make any necessary adjustments to improve reliability
of the data used for billing contractor health care. To include all contractor medical
encounters, the ASD(HA) should provide DFAS with a TMDS spreadsheet that includes
all patient categories except military personnel and all medical encounters where the
patient category was left blank, and ASD(HA) should establish controls to ensure that all
discharge dates are in the TMDS spreadsheet sent to DFAS for billing. Also, the
USD(C)/CFO should develop procedures to bill for non-DoD contracts. Lastly, the
USD(C)/CFO should bill contractors for the additional $128,850 health care expenses
identified in this report. If improvements to the billing system and the accuracy of data
cannot be made, the proponent assigned should determine whether the current billing
system is the best method to bill contractors.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics, develop a quality control process to verify that
contractor personnel consistently include applicable contract numbers in
Synchronized Predeployment and Operational Tracker, to include non-DoD
contracts.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Assistant Secretary of Defense (Logistics and Materiel Readiness) provided
comments for the USD(AT&L). He agreed and stated that a quality control process was
already in place. The SPOT Program Management Office established a process to ensure
that records were tagged for further research each time a database query returned a record
where a contract number could not be identified.

Our Response
The Assistant Secretary’s comments were responsive, and no additional comments were
required.




                                           15 

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, in coordination with the DoD working group and the
functional proponent determined in response to Recommendation A.1:
      a. Establish a quality control process to improve the data entry into the
Theater Medical Data Store to accurately identify contractor personnel and
admission and discharge dates.
       b. Establish procedures to allow the Defense Finance and Accounting
Service to bill for all contractor medical encounters, including but not limited to:
              i. Contractor personnel working under non-DoD contracts, and
              ii. Contractor personnel with no social security numbers.
        c. Bill contractors for the additional $128,850 health care expenses
identified in this report.
       d. Consider another billing method if improvements to the billing system
and the accuracy of data cannot be made.

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments
The Deputy Comptroller for Program/Budget provided comments for USD(C)/CFO. He
generally agreed with the recommendation; however, he stated that it should be directed
to the functional proponent determined in response to Recommendation A.1, in
coordination with USD(AT&L), USD(C)/CFO, ASD(HA), DFAS, the Joint Staff, the
Combatant Commanders, and Military Departments. In addition, he stated that
USD(C)/CFO was not the appropriate functional lead for all of the recommendations
listed under B.2.
The Deputy Comptroller agreed with B.2.a and stated that the functional proponent
would need to work with ASD(HA) to ensure that appropriate data entry edit checks were
in TMDS. Further, he stated that Military Services and Combatant Commanders should
require in-theater personnel to have TMDS training, and they should emphasize accuracy
of TMDS data entry.
For Recommendation B.2.b, the Deputy Comptroller agreed with B.2.b.i, but disagreed
with B.2.b.ii. For B.2.b.i, he stated that establishing and implementing a process to bill
for these encounters would require an extensive evaluation of interagency agreements
across the U.S. Government. Further, he stated that, “[a]fter the designation of a
functional proponent, this should be the next step for review and action.” For B.2.b.ii,
the Deputy Comptroller stated that numerous changes had been made to improve the
SPOT query process. The social security number was no longer a requirement to run a
SPOT query from the TMDS data. Further, he stated that this recommendation should be
removed since it was no longer an accurate statement of the process.
The Deputy Comptroller agreed with B.2.c and stated that the $128,850 worth of health
care expenses indentified in the DoD OIG report would be part of efforts to bill for
                                           16 

services rendered in prior years. However, he disagreed with B.2.d and stated that DFAS
used the systems available to implement the billing process as required by law. In
addition, he asked that we clearly state in the report that there were no other systems
available for meeting the overall billing objective. Further, he stated that the cost to
develop a new system or method was unwarranted at this time.

Our Response
The Deputy Comptroller’s comments were responsive to B.2.b.ii, B.2.c, and B.2.d and
partially responsive to B.2.a and B.2.b.i.
We directed the recommendation to USD(C)/CFO because no DoD functional proponent
had been established and USD(C)/CFO chairs the DoD working group for this area.
Moreover, DoDI 3020.41, “Operational Contract Support,” December 20, 2011, assigned
USD(C)/CFO the responsibility for developing policy addressing the reimbursement of
funds for qualifying medical support received by contingency contractor personnel in
applicable contingency operations. We could not make the recommendation to a
proponent that had not been designated.
The Deputy Comptroller’s comments were partially responsive for Recommendations
B.2.a and B.2.b.i. While there is no designated functional proponent, USD(C)/CFO
should act as an interim proponent because it chairs the DoD working group and is
responsible for developing policy, according to DoDI 3020.41. Therefore, we requested
additional comments.
The Deputy Comptroller’s comments were responsive for Recommendations B.2.b.ii,
B.2.c, and B.2.d, and no additional comments were required. Although he disagreed with
Recommendation B.2.b.ii, his comments were responsive because DFAS no longer
requires the patient’s social security number to bill for health care. We did not remove
the recommendation from the report, as requested by the Deputy Comptroller, because it
pertained to our review of the billings for February 2011, which identified a weakness in
billing for patients without a social security number. The Deputy Comptroller also
disagreed with Recommendation B.2.d; however, his comments were responsive because
ASD(HA) made improvements to the billing system during our audit.
We agree with the Deputy Comptroller’s comment that there are no other systems
available for meeting the overall billing objective. However, we disagree that this is the
only method for billing in Southwest Asia. Other methods for medical billing could
include billing by coded medical encounters, applying capitation rates to contractors,
having a cash collection voucher system (which is a method used at the MTF in Camp
Bondsteel, Kosovo), and receiving cash for service (which is a method used by several
commercial hospitals on military installations in Southwest Asia). However, as stated in
our recommendation, other billing methods should be considered only if improvements to
the billing system and the accuracy of data cannot be made. Since improvements have
been made, we require no additional comments.




                                           17 

B.3. We recommend that the Assistant Secretary of Defense (Health Affairs):

       a. Provide the Defense Finance and Accounting Service with Theater
Medical Data Store spreadsheets that include all patient categories except military
personnel and all medical encounters where the patient category was left blank to
identify all contractor personnel that received reimbursable health care in
Southwest Asia.
      b. Establish a quality control process to include all discharge dates in the
Theater Medical Data Store information sent to the Defense Finance and
Accounting Service for billing.

Assistant Secretary of Defense (Health Affairs) Comments
The Chief Financial Officer, ASD(HA), provided comments for the ASD(HA). He
agreed with Recommendation B.3.a and stated that the TMDS spreadsheet was updated
in December 2011 in response to our Discussion Draft Report. The TMDS spreadsheet
contained data for contractors where DoD staff left the patient category field blank and
the Service field was “CTR.”

The Chief Financial Officer disagreed, however, with Recommendation B.3.b and stated
that changes were made to the TMDS spreadsheet in December 2011 to include all
discharge dates in TMDS in response to our Discussion Draft Report. He stated that
there is a need to “establish a quality control process to include all discharge dates;”
however, ASD(HA) believed the Services are responsible for carrying this out.

Our Response
The Chief Financial Officer’s comments were responsive, and no additional comments
were required. Although he disagreed with Recommendation B.3.b, we believe that
ASD(HA)’s actions met the intent of our recommendation.

According to DFAS officials, the TMDS spreadsheets from ASD(HA) have improved in
listing the discharge date for contractor medical encounters. Further, this
recommendation only addressed the accuracy of the spreadsheets that ASD(HA) officials
provided to DFAS officials.




                                           18 

Appendix A. Scope and Methodology
We conducted this performance audit from November 2010 through January 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We contacted officials from the USD(AT&L), USD(C)/CFO, ASD(HA), Military
Department Assistant Secretaries for Financial Management and Comptroller,
USCENTCOM, the Joint Staff, the Military Department Surgeons General, DFAS, the
U.S. Fleet Forces Command, and the U.S. Army Europe.

We reviewed public law, DoD policy, DoD memorandums, and USCENTCOM
fragmentary orders to identify guidance about billing for health care provided to
contractors at MTFs in Southwest Asia. Specifically, we reviewed Public Law 107-107,
“National Defense Authorization Act for Fiscal Year 2002,” Section 1079b, “Procedures
for Charging Fees for Care Provided to Civilians; Retention and Use of Fees Collected,”
December 28, 2001; DoDI 3020.41, “Contractor Personnel Authorized to Accompany the
U.S. Armed Forces,” October 3, 2005; DoDI 3020.41, “Operational Contract Support,”
December 20, 2011; USD(C)/CFO memorandums from January 4, 2007; June 16, 2008;
September 1, 2009; December 30, 2010; and March 29, 2012, “Medical Billing Rates for
Other Than Foreign Military Personnel Utilizing Department of Defense
 Deployed/Non-Fixed Facilities;” and USCENTCOM Fragmentary Order 09-1038,
“Contractor Care In the USCENTCOM [Area of Responsibility],” July 2006, updated
September 15, 2010.

Before the billing implementation, we used statistical sampling procedures to determine
the effectiveness of TMDS and SPOT for billing contractors in Southwest Asia. See
Appendix C for detailed results on the statistical sample. Also, we used SPOT to
determine whether the patient listed in the TMDS spreadsheets was a contractor, and
whether we could trace the patient to a specific contract number. We compared the
patients in our TMDS spreadsheets to SPOT to review the patients’ profiles, if present.
We identified numerous patients listed in the TMDS spreadsheets as contractor personnel
that were actually not contractor personnel, according to SPOT.

In May 2011, DFAS personnel provided the supporting documentation for the results
from their contractor billings that began on April 29, 2011. We examined the
110 medical encounters billed by DFAS to determine whether DFAS billed the patient
the correct amount for their visit and billed for all the contractor visits to MTFs in
Southwest Asia. Additionally, we tested the reliability of the TMDS and SPOT
spreadsheets DFAS used for billing. We reviewed the electronic medical records in
TMDS for the 110 billed medical encounters. We performed searches on the TMDS and
SPOT Web sites to compare with the spreadsheets that were provided to DFAS to
identify any additional encounters not included on the spreadsheets.

                                           19 

Also, we reviewed the following documentation: the DoD working group summaries,
electronic medical records in TMDS, scanned-in hardcopy inpatient medical records, the
billing concept for billing contractors, business rules for billing contractors, and various
e-mail correspondence between DoD Components.

During our final stages of report processing, on May 24, 2012, DFAS officials provided
documentation supporting $13.7 million for health care going back to FY 2007. We
confirmed that the documentation supported the $13.7 million; however, we did not
verify the accuracy and completeness of the billings for health care going back to
FY 2007.

Computer-Processed Data
We used computer-processed data obtained from TMDS and SPOT. Officials at
ASD(HA) provided spreadsheets from TMDS that we used in our analysis. From the
TMDS spreadsheets, we developed a spreadsheet, called “Known Population,” that
contained FY 2010 inpatient and outpatient encounters listed with a “Duty Status” of
“Other Beneficiaries of U.S. Government – Contract Employee.” We developed a
second spreadsheet, called “Unknown Population,” that contained only FY 2010 inpatient
and outpatient encounters having the following criteria:

      Duty Status listed as “Unknown or Other,”
      Service Description listed as “Unknown or Other,” or
      Rank Code listed as “UNK or OTHR.”

We tested the reliability of the TMDS spreadsheets by examining the electronic medical
record in TMDS and, if available, the scanned hardcopy records obtained from the
U.S. Army Medical Command, Patient Administration Systems and Biostatistics
Activity. We encountered duplicate entries, overlapping stays, admission or discharge
date discrepancies, and patients with multiple profiles. Therefore, we concluded that the
data from the TMDS spreadsheets that we received from ASD(HA) were inaccurate.

However, we adjusted the information in the spreadsheets based on the errors identified
from our review to determine what DoD should have billed for FY 2010. Specifically,
we determined the amount that DoD should have billed for the sample encounter using
the inpatient and outpatient rates with the correct information from the medical record.
For any inpatient stay that was the result of an outpatient visit, we backed out the dollar
amount of the outpatient visit. Also, we determined an amount that should have been
billed for the sample encounter only if we were able to trace the patient to SPOT as being
a contractor. Because we adjusted the data to remove the errors we identified, we believe
that the data used for the calculation of potential monetary benefits were a conservative
estimate and were sufficiently reliable for the purposes of our conclusion.

We did limited testing of the reliability of data from SPOT. We used the data in SPOT as
a tool in our analysis of the billing concept to determine whether the data in the TMDS
spreadsheets were reliable for determining whether the patient was actually a contractor.

                                             20 

In addition, we used SPOT to trace contractor personnel to contract numbers during our
review of the April 2011 billings. Although we did not fully verify the accuracy of
SPOT, we did identify SPOT inaccuracies/omissions, and we considered an encounter to
be a missed opportunity to bill only if we had corroborating evidence that it was a
contractor encounter. We did not use corroborating evidence for the Unknown
Population TMDS spreadsheet because TMDS did not identify the medical encounters as
contractor personnel.

Use of Technical Assistance
The DoD OIG Quantitative Methods Division assisted with the audit. See Appendix C
for detailed information about the work the Division performed.

Prior Coverage
During the last 5 years, the DoD OIG has issued one report discussing medical care
provided by MTFs to contractors in southwest Asia. Unrestricted DoD OIG reports can
be accessed at http://www.dodig.mil/audit/reports.

DoD OIG
DoD OIG Report No. D-2009-078, “Health Care Provided by Military Treatment
Facilities to Contractors in Southwest Asia,” May 4, 2009




                                          21 

Appendix B. Audit Request 





                    22 

Appendix C. Statistical Sample
With assistance from the Quantitative Methods Division, we used a statistical sample to
project the following for FY 2010:

   	 the number of errors in the TMDS spreadsheet that could result in billing 

      inaccuracies, 


   	 the number of patients listed in the TMDS spreadsheet as contractor personnel
      without a contract number in SPOT,

   	 the number of patients listed in the TMDS spreadsheet with an unknown patient
      category, but identified as contractor personnel in SPOT, and

   	 the estimate of claims not billed for contractor health care provided by MTFs in
      Southwest Asia.

Population
The population consisted of two TMDS spreadsheets with inpatient and outpatient
encounters for patients listed as contractors (Known population) and listed as unknown
for their rank, patient category, or military service (Unknown population). The Known
population consisted of 29,532 medical encounters, but we found that the Known
population contained some patients listed as U.S. Government employees and contractors
from the Joint Patient Tracking Application. Therefore, once we extracted those patients
whose patient category was listed as contractor personnel and removed the duplicate line
items from the spreadsheet, the inpatient strata consisted of 1,433 encounters and the
outpatient strata consisted of 11,160 encounters, for a total of 12,593 medical encounters.
The Unknown population consisted of 375,867 medical encounters. Once we removed
the duplicates, the inpatient strata consisted of 506 encounters and the outpatient strata
consisted of 164,532 encounters, for a total of 165,038 medical encounters.

Sample Plan
We used a stratified sampling design for this review. We stratified the Known and
Unknown populations by inpatient and outpatient encounters and determined the
appropriate sample size for each stratum based on our calculations, what-if analysis we
performed, and our professional judgment. We drew samples without replacement from
each stratum using the random function tool in Microsoft Excel. See Tables C-1 and C-2
for details of the strata and sample sizes used in the review.




                                            23 

           Table C-1. Known Population for Medical Encounters, FY 2010
                                     Population Size          Sample
                Stratum
                                                                Size
      Inpatient                                 1,433                     135

      Outpatient                               11,160                     128

        Total                                  12,593                     263



         Table C-2. Unknown Population for Medical Encounters, FY 2010
               Stratum              Population Size         Sample
                                                               Size
      Inpatient                                    506                    30

      Outpatient                             164,532                      120

        Total                                165,038                      150



Statistical Projection and Interpretation
In the paragraphs below, we detail our projections and interpretations for all four
statistical projections made in the audit report.

Errors in TMDS Spreadsheet That Could Affect Billing
To determine the number of errors in the Known population that could result in billing
inaccuracies if TMDS was used for billing, we compared the sampled medical encounters
in the TMDS spreadsheet to the corresponding patient’s electronic medical record or the
patient’s hardcopy medical record from the U.S. Army Patient Administration Systems
and Biostatistics Activity. Based on our review of the sampled encounters, we calculated
the projection at the 90-percent confidence level. See Table C-3.

Table C-3. Statistical Projections of Known Population Results for TMDS Line Item
                      Errors That Could Affect Billing, FY 2010
                                          Lower           Point       Upper
                                          Bound         Estimate      Bound
  TMDS Line Item contained an                 2,726           3,499             4,272
  error that could affect billing          21.6 percent    27.8 percent     33.9 percent



                                            24 

From the population of 12,593 medical encounters, we are 90-percent confident that the
number of medical encounters that had errors that could adversely affect billing using
TMDS was between 2,726 and 4,272 medical encounters, and the error rate was between
21.6 percent and 33.9 percent. The point estimate was 3,499 medical encounters that had
errors that could adversely affect billing by TMDS, or 27.8 percent.

Contractor Personnel That Did Not Have a Contract Number
in SPOT
To determine the number of patients listed in the Known population that did not have a
contract number in SPOT, we entered the patient’s name from the corresponding sampled
medical encounters in the TMDS spreadsheet into SPOT to view the patient’s SPOT
profile, if present. Based on our review, we calculated the projection at the 90-percent
confidence level. See Table C-4.

    Table C-4. Statistical Projections of Known Population for the Number of 

  Contractor Personnel That Did Not Have a Contract Number in SPOT, FY 2010 

                                          Lower        Point         Upper
                                         Bound       Estimate        Bound
  Patient’s contract number was not         4,486            5,285           6,084
  identified in SPOT – contractor        38.6 percent    45.3 percent     51.9 percent
  organization could not be billed
  for patient’s visit


From the population of 12,593 medical encounters, we are 90-percent confident that the
number of medical encounters that would not trace to a corresponding contract
organization that could be billed by DoD for their employee’s medical care visit was
between 4,486 and 6,084 medical encounters, and the error rate was between 38.6 percent
and 51.9 percent. The point estimate was 5,285 medical encounters that could not be
billed by DFAS, or 45.3 percent, because SPOT did not contain the patient’s contract
number.

Estimated Number of Contractor Personnel Not Identified as
Contractor Personnel in TMDS
To determine the number of patients listed in the Unknown population that are actually
contractor personnel in SPOT, we entered the patient’s name from the corresponding
sampled medical encounters in the TMDS spreadsheet into SPOT to view the patient’s
SPOT profile, if present. If the patient was identified in SPOT as contractor personnel,
we counted that medical encounter as a potentially billable event. Based on our review,
we calculated the projection at the 90-percent confidence level. See Table C-5.




                                           25 

Table C-5. Statistical Projections of Unknown Population Results for the Number of 

       Medical Encounters That Are Contractor Personnel Visits, FY 2010

                                           Lower        Point          Upper
                                          Bound       Estimate         Bound
  The patient was identified as              3,705          11,019          18,334
  contractor personnel in SPOT             2.2 percent    6.7 percent    11.1 percent


From the Unknown population of 165,038 medical encounters, we are 90-percent
confident that the number of medical encounters for contractor personnel that received
medical care at an MTF in Southwest Asia was between 3,705 and 18,334 medical
encounters, or between 2.2 percent and 11.1 percent. The point estimate was
11,019 medical encounters that were contractor personnel that received medical care at
an MTF in Southwest Asia, or 6.7 percent.

Estimate of Claims Not Billed for Contractor Health Care
To determine the estimate of claims not billed for contractor health care provided by
MTFs in Southwest Asia, we calculated the billable amount for every contractor
personnel medical encounter in the Known and Unknown sample that we were able to
trace to SPOT as a contractor. Based on our review, we calculated the projection at the
90-percent confidence level. See Table C-6.

  Table C-6. Estimate of Claims Not Billed for Health Care Provided by MTFs to
                     Contractors in Southwest Asia, FY 2010
                                          Lower         Point         Upper
                                          Bound       Estimate       Bound
  Amount                                   $6,691,152     $8,107,341      $9,523,530


For the dollar projection, we are 90-percent confident that the contractor billings were
between $6,691,152 and $9,523,530, with a point estimate of $8,107,341. Therefore, we
project that the FY 2010 estimate of claims not billed for contractor health care was at
least $8.1 million when you combine the point estimates for the Known and Unknown
projections. These projections did not take into account medical encounters in TMDS
where the patient category was left blank or the contractor medical encounters from
TMDS that did not trace to SPOT as a contractor. Therefore, we believe our dollar
projections were conservative.




                                           26 

Appendix D. Summary of Potential
Monetary Benefits
Recommendation    Type of Benefit       Amount of Benefit           Account
A.2              Economy and           Funds put to             Army
                 Efficiency.           better use:              2122020.0000 8A
                                       $13.7 million, as of     2024P135197.0000
                 Billing for prior     May 24, 2012.            2566 832QMR
                 health care                                    2QMR83 S09076
                 provided by MTFs      This amount
                 to contractors in     represents additional    Navy
                 Southwest Asia        funds available to the   AA1721804.0000
                 would provide         Military Departments.    60BA260000602
                 additional            We plan to track that    0609512DV68684
                 resources to          amount and any           686841K7000T
                 support the troops.   additional billings
                                       using our audit          Air Force
                                       followup process.        5723400.0000 301
                                                                7826 W0X040 01
                                                                559ZZ 28539F
                                                                ESP 7C S667100
B.2              Internal Controls.    Undeterminable.          Army
                                                                2122020.0000 8A
                 Improving the         Amount is subject to     2024P135197.0000
                 quality controls on   results of future        2566 832QMR
                 the current billing   billings by DFAS for     2QMR83 S09076
                 system would          health care provided
                 reduce the amount     by MTFs to               Navy
                 underbilled and       contractors in           AA1721804.0000
                 identify additional   Southwest Asia. We       60BA260000602
                 medical encounters    plan to track monetary   0609512DV68684
                 to be billed.         benefits during the      686841K7000T
                                       audit followup
                                       process.                 Air Force
                                                                5723400.0000 301
                                       Determinable.            7826 W0X040 01
                                       Funds put to better      559ZZ 28539F
                                       use: $128,850 for        ESP 7C S667100
                                       underbilled amount for
                                       February 2011
                                       contractor health care
                                       addressed in
                                       Recommendation
                                       B.2.c.


                                       27 

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments

                                 ASSISTANT SECRETARY OF DEFENSE
                                           3500 DEFENSE PENTAGON
                                          WASH INGTON , DC 20301 ·3500




    LOGIS'nCS AND
  MATe:AIELAEAOINESS
                                                  MAR 1 6 2012

         MEMORANDUM FOR ASSISTANT INS PECTOR GENERAL AND DIRECTOR, DEFENSE
                          FINANCIAL AUDiTING SERVICE, DEPARTMENT OF
                          DEFENSE INSPECTOR GENERAL (DODIG)

         THROUGH: DIRECTOR, ACQUIS IT ION RESOURCES AND ANALYSIS                        'f}.a..   \11.­

         SUBJECT: Response 10 DoDiO Draft Report on the Billing System for Health Care Provided 10
                  Contractors at Medical Treatment Facilities in Southwest Asia (project No. 0201 1-
                  DOOOLF-0041.000)

                 As requested by your February I. 20 12 memorandum "000 Needs to Improve the Billing
         Systems for Health Care Provided to Contractors nr Medical Treatment Facilities in Southwest
         Asia," I am providing responses to the two recommendations for the Under Secretary of Defense
         for Acquisiti on, Techno logy, and Logistics (USD(AT&L)) contained in tl,e subject draft report.

         Recommendation At :
         That the Under Secretary of Defense (ComptroJ ler)/Chief Financial Officer, chair a meeting with
         the USD(AT &L) and the Under Secretary of Defense for Personnel and Readiness to select a
         DoD functional proponent responsible for overseeing the billing system for health care provided
                                       Click to add JPEG file
         10 comractor personnel authorized to accompany U.S. Anned Forces in contingency operati ons.


         Response:
         Concur. We agree a single DoD functional component responsible for overseeing the billing
         process is necessary. The Defense Finance and Accounting Service (DFAS) currently serves as
         the functional proponent for the Mil itary Services and DoD Components accounting and billing
         functions. The Department maintains multiple regulatory requirements that outl ine speci fic
         requirements for billings and collections. As such, those guidelines are incorporated into the
         services that DFAS provides.

         A comprehensive DoD worki ng group was establi shed in the Fall of2008 to co llaboratively
         identify improvements 10 the medical billing process. Membership includes all Military Services
         (both foreign military sales and medical communities), Joint Staff, OUS D(AT &L), Office of
         General Counsel (Fiscal), U.S. Central Command, OASD(Health Affairs), DFAS, and
         OUSD(Comptroller)/PB. The working group continues to review roles and responsibilities
         associated with the billing system process for in-theater health care provided to contractor
         personnel and will further assign specific oversight responsibilities to the most appropriate
         organization.




                                                                  28
Recommendation Bl:
That the Under Secretary of Defense for Acquisition, Technology. and Logistics develop a
quality control process to verify that contractor personnel consistently include applicable
contract numbers in Synchronized Predeployment and Operational Tracker (SPOT). to include
non-DoD contracts.

Response:
Concur. A quality control process is already in place. SPOT requires all users enter a contract
number into the system for a valid record to be created. Therefore. any valid record in SPOT
includes a contract number. In addition, the SPOT Program Management Office established a
process to ensure records are tagged for further research each time a database query returns a
record where a contract number cannot be identified. In these rare cases, with some additional
research. our analysis has concluded a contract number can be found and provided to the DFAS
for billing.

       Please contact _ _ • • • • • • • ifadditiona!
infonnation is required.




                                 Click to add JPEG file




                                               2




                                                           29
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments

                          OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                     1100 DEFENSE PENTAGON
                                        WASHINGTON. D C 20301-'100


                                                                                                I,:"~   - 9 20U
     COMPTROLLER

 (P rogram/ Budget)

          MEMORANDUM FOR INS PECTOR GE:-JERAL OF THE DEPARTMENT OF
                           DEFENSE

          SUBJECT: Draft Report. "H ealth Care Provided by Military Treatment Facilities to Contractors
                   in Southwest As ia" (Project No. D2011-DOOOLF-0041.000)

                   Thank you for the opportunity to rev iew and provide comments on the subject draft

          report . dated February 2. 2012. While we generall y agree that additional improvements can and

          are being made to the billing process, our specific commenl!ilcollccms on the drall report Uft

          provided in the attached document. My point of contac t is • • • • • • • • • • •. who

          may be reached a• • • • • •




                                                           Jtf;
                                           Click to add JPEG file
                                                           Deputy Comptroller

          Attachment:
          As stated




                                                                      30
        DEPARTMENT OF DEF ENSE OFFICE OF THE INSPECTOR GENERAL 

                DRAFT REI'ORT - DATED FEBRUARY 1,2012 

                   PROJECT NO. D2011-DOOOLF-0041.000 


          " DOD NEEDS TO IMPROVE BILLING SYSTEMS FOR HEALHI CARE
        PROVIDED TO C ONTRACTORS AT MEDI CA L TREATMENT FACILITIES I
                              SO UT HWEST AS IA"

                          DEPARTMENT OF DEFENSE COMMENTS 

                              TO THE RECOMM EN DATIONS 


Recommendation A.1. (pllgc 6): We recommend lhal the Under Secretary of Defc nse
(Comptroller)/C hief Financial Officer. chai r a meeting with the Under Sec retary of Defense ror
Acquisition. Techno logy, and Logistics and the Under Secretary of Defe nse for Personnel and
Readiness to select a DoD functional proponent responsible for overseei ng the bi ll ing system for
hea lth care provided to contractor person nel authorized to accompany U.S. Amlcd Forces in
contingency operations.

DoD Respon se: Parti all y concur. The Defense Finance and Account ing Service (DFAS)
con tinues to serve as the functional proponent (or DoD accounlinglb ill ing fun ctions. The DoD
wo rki ng group con tinues to review roles and responsibili ties in terms o r spcc iri c oversight billing
system for in -theater health care provided to co ntractor personnel and plans to ass ign oversight
responsibili ties to the most appropriate organi zation during the Department's upcoming
Program/Budget Review.
                                  Click to add JPEG file
Recommendation A.2. (ou!!e 6), We recommend that the Under Secretary of Defense
(Comptroller)/ChiefFinancial Ollicer. in coord ination with the proponent se lected in response to
Recom mendation A. I .. bi1J co ntractors for health care provided in Southwest Asia before
February 20 II .

1)01)  Respon se Concur. T he DFAS has billed for med ical treatment events going back to
Fisca l Year (FY) 2007. and con tinues to add ress data integrity issues for addi tional billi ngs.
Although the initi al billings are not complete, OFA continues to work with the Synchronized
Pre-Deployed Operationa l Tracker (SPOT) and the TI,eater Medical Data Store (TMDS) to ali gn
medica l treatment events to primary contractors for addit ional billings. umerous changes have
been made to improve the POT query process by 10 percent to include identifying contracts
whether or nOl they have a task order associated wi th them ; running queries on all active, open or
closed S POT deployment s: and opening up the query to include Social Securi ty Number (SSN.
Last Name/First Name and Date o f Birth.) The report indi cates in the above statemcnt that
bill ings pri or to Feb ruary 20 11 need to occur. We arc actively bill ing for medica l treatment
events goi ng back to FY 2007. The report shou ld ac knowledge the organizati ons involved in
these billings activi ties. and recognize the progress made by these organizations.




                                                               31
Recommendation 8.2. (page 13): We recommend that the Under Sec retary o f Defense
(Comptroller)/Chief Financial Officer. in coo rdinat ion wi th the DoD working group and the
proponent dctem,ined in response to Recommendation A.I:

0 00 Ilcs ponse: Nonconcur. Reco mmend initial statement be revised to read :

"We recommend that the proponent detennincd in response to Recommendation A I . in
coordination with the appropriatc organizations to include. the Under Secretary of Defense
(Comptroll er)/ChiefFinancial Officer: the Under Secretary of Defense fo r Acqui si tio n.
Tec hnology, and Logistics: the Assistant Secretary of Defense (AS D) (Hea lth AfTairs): the
Defense Finance and Accounting Service: the Joint StaO': the Combatant COlll mander: and
Military Dcpan mcnt s,"

The Under Sccretary of Defense (Comptrollcr)/Chi ef Fi nancial Offi cer is not the appropriate
fu ncti onal lead for all ofthc recommendations listed under B.2. nor is the " DoD working group"
an appropriate entity to assign specific tasks. The rcfore, th is recommendati on shou ld list the
specific organizations that comprise the working group.

Recommendation n.2. a. (page 13) : Establi sh a quality control process to improve the data
entry into the Theater Medical Data Storc to accurately idcnt ify comractor personnel and
admission and di scharge dates.

DoD Ilesponse: Concur. The proponent detennincd in response to Rccommenda tion A I will
need to work with ASD( Hcath Afl'airs) who owns and manages Theater Medical Data Store
                                  Click to add JPEG file
(TMDS) to cnsure appropriate data entry ed its checks arc in placc within the system. Also
requircs TMDS training and emphasis on acc uracy by Military Services and Combatan t
Commandcrs to in-theater personnel .

Recommendalion B.2.h. (p age 13): Establish procedures to allow the Defense Fi nance and
Accounting Sc rvice to bill for all contrac tor medical encounters. including but not limited to:

       i. Co ntract or personnel working under non-DoD con tracts
       ii. Contractor personnel with no social sec urity numbers.

1}oD Iles ponse: Concur with the B.2.b.i. reco nullcndati on. The initial billing process has
concentrated on capturing. billi ng. and improving the data co llecti on fb r care re latcd to DoD
controll ed cont racts. which make up an est imated 98 percent of the in-theater health care
provided to contractors. Whilc bill in g fo r care provided to non-DoD contractors is cen ainly a
long-term goa l or the process. estab lishi ng and implementi ng a process to bill for these
encounters \\~Il require an cxtensivc cvaluation of interagency agreements across the United
States Govenullcnt. After the designation of a functional proponent. this shou ld be the next step
to r review and actio n.

  onconcur wi th the B.2.b.ii. recommendation. This ellon is alrcady occurring. The DFAS
continucs to work with SPOT and TMDS to 0 00 align med ica l treallllcnt events to prim ary
co ntractors for addit ional billings. Numerous changes have been made to improve the SPOT


                                                  2




                                                              32
query process to include ident ifying eOnlracts whether or not they have a task orde r associated
with them; running queries on all active. open or closed SPOT deployments; and opening up the
query to include SSN. or ifno SSN exists. then Last NamelFirst Name and Date of Birth (DOB).
A review of the S I)Or query for the Deccmber 20 11 and January 20 12 TMDS data, result s in
comract data being provided for all personnel properly identified in POT and having a record as
a "contractor personnel:' When the query result stales that there is no data in SPOT on an
individual, it is either because they have been improperl y coded in TMDS as a con tractor
personnel and they are trul y a government civilian or the name and DOB provided by TMDS
docs not have enough fidelity to create a match in POT (e.g. First Name: Trauma: Last Name:
Doe; with a DOB that is made·up). The 5S is no longer a requirement in order to run a SPOT
query from the TMDS data, Thi s recommendation should be removed since it is not an accurate
statement of the process.

Reco mmend atio n S.2.c. (mtge 13): Bill contractors for the additional $128.850 heahh care
expenses identified in thi s report.

000 Res ponse: Concur. Thc $128.850 worth of health care expenses idelltilied in the Inspector
General report will be part of efforts to bill for services rendered in prior years .

Recomm endation S.2.d. (puge 13): Consider another billing method if improvcmcnts to the
bi ll ing system and the accuracy of data cannot be made.

1)01) Response: Nonconcur. The DFAS ulilized the systems available to implemcnt the billings
process as required by law. The report indicates that "non· financial" systems were selected that
were not established as sources for billing con tractors. It is recommcnded the report clearl y state
                                Click to add JPEG file
thutlhere were no other systems available for meeting the overall billing objective. The
Department continues to refine and improve both the billing system and the accuracy oflhe data
currently in use and believes that the cost to develop a new system/method is unwarranted at this
time.

Other Co mm ent

Audit Statement (P3I!CS i and 6): "We estimate 000 did not bill contractors for at least
$8.1 million in health care expenses for FY 2010:'

000 Response: Nonconcur. The Defense Finance and Accounting Service has billed for
$4.2 million in FY 20 10 contractor health care encounters and continues to re view data to
detenlline ifadditional billings arc req uired.




                                                 3




                                                            33
Assistant Secretary of Defense (Health Affairs) Comments 



                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                           HEALTH AFFAIRS
                               SKY LfNE FIV E. SUITE 810, 5111 LEESBURG PIKE
                                   FALLS CHURCH, VIRGINIA 22041 -3206


   TRICAR£
  MANAGE~Ir.~
                                                                                            MAR -7 2012
    Acnvrrv

        MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                       PROGRAM DIRECTOR, MILITARY HEALTH YSTEM
                          DIV ISION

        SUBJECT: Department of Defense Inspector General Draft Report "Department of
                 Defense eeds to Improve the Billi ng System for Health Care Provided to
                 Contractors at Medical Treatment Facilities in Southwest Asia" (project No.
                 D201 1·DOOOLF-0041.000)

                Thank you for the opportunity to review and comment on the Department of Defense
        draft repon Project No. D20 11-DOOOLF-0041.000 - "DoD Needs to Improve the Billing ystem
        for Health Care Provided to Contractors at Medical Treatment Facilities in Southwest Asia,"
        dated February 1,2012.

             My specific comments to Recommendations A.I, 38 and 3b are attached.
        Recommendation 3b was assigned to the Office of the Assistant Secretary of Defense (Health
        Affairs» for action but belongs to the functional poe which is your office. Please feel free to
        utili ze our conunents on this recommendation to help formulate your response. Overall, I concur
                                       Click to add JPEG file
        with the report 's findings and conclu sions.

                 Please feel fre~om~rson this topic •
        •       (Functional) at _            or _ _ (Audil L'."·""!




        Anachment:
        As stated




                                                                 34
        DEPARTMENT OF DEFENSE OFFICE OF TH E I SPECTOR GENERAL
                 DRAFT REPORT - DATED FEBRUARY 1, 2012
                    PROJ ECT NO. 020) I·DOOOLF·OO4 I.OOO
        "000 NEEDS TO IMPROVE BILLI NG SYSTEMS FOR HEALTH CA RE
           PROVIDED TO CONTRACTORS AT ME DI CAL T REATMENT
                     FACILITI ES IN SOUTHWEST AS IA"


                       DEPARTM ENT OF DEFENSE COMMENTS 

                           TO THE RECOMMENDATIONS 


We recommend that the Assistant Secretary of Defense (Health Affairs):

RECOMMENDATION A.I: We reco mmend that the Un der Secretary of Defen se
(Comptroller)/Chief Financial Officer, chair a meeti ng with the Under Secretary of
Defe nse for Acquisition, Technology, and Logistics and the Un der Secretary of Defense
for Personnel and Readiness to select a Department of Defense (000) functional
proponent responsible for overseeing the billing system for health care provided to
contrac tor personnel authorized to accompany U.S. Armed Forces in contingency
operati ons.

DOD RESPONSE: Co ncur. The Defense Finance and Accou nt ing Service (DFAS)
continues to serve as the fu nctional proponent for 0 00 accounti nglbilling fu ncti ons. The
DoD working group continues to review ro les and responsibi lities in terms of specific
oversight of the billing system for in·thea ter health care provided to contractor perso nne l.
                                Click to add JPEG file
The Working Group pl ans to assig n oversight responsibi li ties to the most appropriate
organization during the Department's upcoming Program and Budget Review.

RECOMMENDATION B.3.a: Provide the Defense Fi nance and Accounting Service
with Thea ter Medical Data Store spreadsheets that include all patient categories except
mi li tary perso nnel and all medical encou nter where the patient category wa left blank to
identify all co ntracto r perso nnel that received rei mbursable health care in Southwest
Asia.

DOD RESPONSE: Concur. The Theater Medical Data Store (T MDS) spreadsheet was
updated in December 20 11 in response th e DoD IG Disc ussion Draft Report. "DoD
Needs \0 Improve the Bi ll ing System for Health Care Provided to Contractors at Medi ca l
Treatment Fac ili ties in Sou thwest As ia". October 3 1. 20 11. The TMDS spreadsheet
contains data for conlractors based on the fo llowing patient category codes: A03­
Contractor, K65 ·Other Benefi ciaries of U.S. Governmen t · Con tract Employee, K99·
Patients Not Elsewhere Classified· Other, X60·Foreig n National·Civilian Contractor
OCONUS in Support of 000 Operation, X65· U.S. Citizen·Civi lian Contrac tor OCONUS
in Support of 000 Operation. The spreadsheet also incl udes data for those entries where




                                                           35
the patient category field is left blank (" NULL" selec ti on) and the Service field is "CTR".
The spreadsheet exclude all other patient categori es.

RECOMMENDA TION a.3.b: E tablish a quality control process to include all
discharge dates in the Theater Medical Data Store information sent to the Defe nse
Finance and Accounting Service for billing.

DOD RESPONSE: Non-concu r. The program office updated the TMDS spreadsheet in
December 20 11 to include all discharge dates in TMDS in response to the 0 00 IG
Discussion Draft Report, "000 Needs to Improve the Billing System for Health Care
Provided to Contractor at Medical Treatment Facilities in Southwest Asia", October 31,
20 11 . We agree that there is a need to "establish a quality con trol process to include all
discharge dates"; however, the Services, not the program office, are responsible for
carrying th is ou t. The program office is respo n ible for deve loping the TMDS system for
operalional use by the Services.




                                 Click to add JPEG file




                                                           36
